No. 20-7865
In the Supreme Court of the United States

TERRY LEE FROMAN,
Petitioner,
v.
OHIO,

Respondent.

ON PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF OHIO

PROOF OF SERVICE

DAVID P. FORNSHELL*

Warren County Prosecuting Attorney
*Counsel of Record

Warren County Prosecutor’s Office

520 Justice Drive

Lebanon, Ohio 45036

P: 513-695-1325

F: 513-695-2962

david.fornshell@warrencountyprosecutor.com

Counsel for Respondent
State of Ohio
PROOF OF SERVICE
I, David P. Fornshell, a member of the bar of this Court, hereby certifies that, on May 25,
2021, a copy of the Respondent State of Ohio’s Brief in Opposition to the Petition for Writ of
Certiorari was sent via regular U.S. mail to counsel for Petitioner:
Jessica Houston and Kimberlyn Seccuro
250 East Broad Street, Suite 1400
Columbus, Ohio 43215

Ph: (614) 466-5394

Marnier ses
DAVID P. FORNSHELL
Warren County Prosecuting Attorney
